<html>
<title> - THE PRICE OF UNCERTAINTY: HOW MUCH COULD DOT'S PROPOSED BILLION DOLLAR SERVICE RULE COST CONSUMERS THIS HOLIDAY SEASON?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
THE PRICE OF UNCERTAINTY: HOW MUCH COULD DOT'S PROPOSED BILLION DOLLAR 
            SERVICE RULE COST CONSUMERS THIS HOLIDAY SEASON? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON REGULATORY AFFAIRS
              STIMULUS OVERSIGHT, AND GOVERNMENT SPENDING

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2011

                               __________

                           Serial No. 112-132

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

74-038 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                    Relations and Procurement Reform

                   JAMES LANKFORD, Oklahoma, Chairman
MIKE KELLY, Pennsylvania, Vice       GERALD E. CONNOLLY, Virginia, 
    Chairman                             Ranking Minority Member
JASON CHAFFETZ, Utah                 CHRISTOPHER S. MURPHY, Connecticut
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
PATRICK MEEHAN, Pennsylvania
BLAKE FARENTHOLD, Texas



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 30, 2011................................     1

                               WITNESSES

Statements of:
        Ed Nagle III.............................................    42
        Glen Keysaw..............................................    48
        Robb Mackie..............................................    63
        Frank Miller.............................................   103
        Henry Jasny..............................................   111
        Jesse David..............................................   152
Letters, statements, etc., submitted for the record by:
         The Honorable Anne S. Ferro, Administrator, Department 
          of Transportation Motor Carrier Safety Administration..     3
        Marchelle Wood...........................................   150


THE PRICE OF UNCERTAINTY: HOW MUCH COULD DOT'S PROPOSED BILLION DOLLAR 
            SERVICE RULE COST CONSUMERS THIS HOLIDAY SEASON?

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

                  House of Representatives,
      Subcommittee on Regulatory Affairs, Stimulus 
                Oversight, and Government Spending,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the subcommittee] presiding.
    Present: Representatives Jordan, DesJarlais, Labrador, 
Buerkle, Kelly, Issa, (ex officio), Kucinich, and Braley.
    Staff Present: Ali Ahmad, Communications Advisor; Michael 
R. Bebeau, Assistant Clerk; David Brewer, Counsel; Sharon 
Casey, Senior Assistant Clerk; Christopher Hixon, Deputy Chief 
Counsel, Oversight; Kristina M. Moore, Senior Counsel; Kristin 
L. Nelson, Professional Staff Member; Cheyenne Steel, Press 
Assistant; Sharon Meredith Utz, Research Analyst; Jaron Bourke, 
Minority Director of Administration; Claire Coleman, Minority 
Counsel; Carla Hultberg, Minority Chief Clerk; Paul Kincaid, 
Minority Press Secretary; and Adam Koshkin, Minority Staff 
Assistant
    Mr. Jordan. We welcome everyone to our hearing this 
morning, ``The Price of Uncertainty: How Much Could DOT's 
Proposed Billion Dollar Service Rule Cost Consumers?'' We want 
to get started. I'm glad we have our--my friend and ranking 
member here, Mr. Kucinich. I'll start with our opening 
statements, and I've got a longer opening statement than 
normal, so I'll read fast.
    This last week ordinary people across this great United 
States have engaged in the annual tradition of shopping for 
Christmas gifts, rising at predawn hours to take advantage of 
Black Friday sales and Cyber Monday deals. The shopping season 
is vital to the survival of so many small retailers. The vast 
majority of all retailers and 80 percent of all U.S. 
Communities depend solely on trucks to deliver and supply the 
products sold in stores or ordered online. At last count, 
trucks moved $8.3 trillion worth of goods annually, 
facilitating nearly 60 percent of the economy.
    Unfortunately, these merchants and professional truck 
drivers who bring the goods to market have a very real reason 
to be worried this year. The Department of Transportation 
Federal Motor Carrier Safety Administration has produced a 
multibillion-dollar regulation, the Hours of Service rule, that 
threatens to raise prices and cut revenues this holiday season, 
further jeopardizing our fragile economic recovery. DOT's Hours 
of Service rule, which is one of only seven regulations, 
President Obama admitted, impose an annual cost of at least $1 
billion on the economy. It is being reviewed at the White House 
as we speak. This regulation will hurt an array of job 
creators, from truckers to grocers to bakers and retailers, all 
of whom rely on trucking to operate. The rule, which has 
received nearly 30,000 comments, has been the subject of 
widespread and bipartisan concern. Critics of the rule include 
multiple Democratic Senators and the administration's small 
business watchdog, the Small Business Administration's Office 
of Advocacy.
    At this time I would like to enter into the record a 
comment letter from the Office of Advocacy to Administrator 
Ferro. Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. In February 2011 I joined with a bipartisan 
group of 122 House Members who wrote the U.S. Department of 
Transportation Secretary, Mr. LaHood, to express the concern 
that altering the current Hours of Service rules is unnecessary 
and would result in more trucks and drivers on the road to 
transport the same amount of goods, increasing final product 
costs and congestion on the Nation's already overcrowded 
highways. This letter points out that the proposed rules could 
actually decrease safety because they could cause drivers to 
rush, adding stress, and increasing the likelihood of an 
accident.
    While I support the goals of increased highway safety and 
reducing the driver fatigue, this rule appears to be a solution 
in search of a problem. Even DOT admits that, ``the data shows 
no decline in highway safety since the implementation of the 
2003 Hours of Service rule and its readoption in 2005, and the 
2007 interim final rule.'' Moreover, trucking-related accidents 
are at an all-time low. The Department of Transportation's own 
data shows that 2009 saw the largest annual decline in fatal 
trucking accidents on record. Meanwhile, the number of truck 
miles traveled and the number of registered trucks has 
increased from 221 billion miles in 2004 to 288 billion miles 
today. The number of registered large trucks has also increased 
by nearly 3 million. Accordingly, it appears the current rules 
are working and are striking the appropriate balance.
    In order to justify the expensive regulation, it appears 
the DOT is playing games with the numbers and is using fuzzy 
math in an attempt to justify their action. One of our 
witnesses today will explain how DOT is rigging the system.
    At this time I would like to also enter into the record a 
report by Edgeworth Economics entitled ``Review of FMCSA's 
Regulatory Impact Analysis for the 2010-2011 Hours of Service 
Rule.'' Again, without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. This report highlights the inventive 
methodologies and improbable assumptions DOT uses to increase 
the apparent net benefits of the rule. When real-world 
assumptions are used, this study finds that the rule will 
impose a net cost to society. I also want to emphasize that 
there is a strong bipartisan agreement on the need to ensure 
and improve highway safety; however, it is my sincere belief 
that the regulation as currently proposed could actually have a 
negative impact on safety.
    The purpose of today's hearing is to bring transparency to 
the rulemaking process so that we understand the full 
consequences of Federal regulation before it becomes law. And 
with that, I now yield to the distinguished member from Ohio, 
Mr. Kucinich.
    Mr. Kucinich. Mr. Chairman, thank you very much for holding 
this hearing and for the opportunity to make this presentation. 
This question is being framed around how much the proposed 
rule, which limits the number of hours commercial truck drivers 
can be on the road, could cost consumers. But I would 
respectfully submit there are far more appropriate questions: 
whether this proposed rule will help ensure that all of our 
loved ones will be safe and able to enjoy each other's company, 
which the proposed rule, that is what it's all about, is saving 
lives.
    Truck driver fatigue is a serious safety problem that 
threatens everyone who gets on a highway every day. Each year 
on average 4,000 people are needlessly killed and 100,000 are 
injured, 100,000 are injured in truck crashes. Evidence 
suggests that truck driver fatigue is a major factor in these 
crashes.
    Under the Hours of Service rule currently in effect, truck 
drivers can drive more than 77 hours a week. Think about that. 
You know, we're all used to thinking about a 40-hour week. When 
Congress is in session we probably put in an 80-hour week, some 
of us at least, I would say, and you get tired. But if you're 
driving a truck with all of that machinery and mass in motion, 
there are consequences when fatigue sets in. There's a human 
dimension here that cannot be ignored, and under the amounts of 
driving currently allowed, 65 percent of drivers reported that 
they often or sometimes felt drowsy while driving; 48 percent 
say they've fallen asleep while driving the previous year.
    I will say this again. You know, some of us here have been 
in legislatures, some of us had to drive a great distance to 
legislatures. When you're on a schedule and the legislature is 
in session, you know, if you have a long drive you can get 
drowsy. It's happened to me, it's happened to all of us. It 
happens. And we have to realize that truck drivers are not 
immune from this. You get the combination of these tired 
truckers driving loads of 80,000 pounds; it can make a lethal 
weapon that we don't want alongside our families driving on 
highways.
    There are brave people in the audience today who came to 
support stricter standards for truck drivers because they've 
been unfortunate to have felt firsthand the devastating effects 
of truck driver fatigue.
    Now, Ed Slattery is here with his son Peter, and they've 
submitted a statement for the record, Mr. Chairman, which I 
would like--but I want to read from parts of his statement so 
that members of this subcommittee and others will know the real 
costs of truck crashes involving tired truckers. And so, you 
know, without objection, I would like to submit his entire 
statement for the record.
    Mr. Jordan. So ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. But I want to quote from something. It's a 
compelling testimony. Mr. Slattery, thank you and your son for 
being here.
    ``It was a beautiful, clear day on August 16, 2010, when my 
family's lives were changed forever. My wife Susan and our two 
sons, Peter and Matthew, were returning home from a big family 
reunion in Rocky River, Ohio, which happens to be in my 
district. That was the home of Susan's parents, George and 
Ginger Palmer. Susan grew up in Cleveland, and all of her 
family still lives in Ohio.''
    Mr. Slattery writes, ``I would have been with them, but I 
wasn't able to travel because I was recovering from shoulder 
surgery. As they neared the 190-mile marker on the Ohio 
Turnpike in Streetsboro at around 11:45 a.m., a truck driver 
behind the wheel of a triple trailer truck had fallen asleep 
and crashed into the back of our car.''
    Mr. Slattery writes, ``In an instant I lost my wife, and 
Peter and Matthew were in emergency surgery. Following the 
impact with our car, the truck went on to hit two other semis 
and four more passenger vehicles before stopping at a divider 
and bursting into flames. The weeks following the crash were 
spent juggling surgeries for both boys, meeting with doctors, 
lawyers, and funeral directors, all while ensuring that someone 
was always at Peter and Matthew's side. For some time, I spent 
each day wondering if Matthew would make it to the next.
    After about a month, the boys were stable enough to return 
to Baltimore where we began a journey dealing with the long-
term effects of a crash, including the loss of my wife Susan. 
Peter, who was suffering a broken pelvis and facial fracture, 
was conscious and being moved to a helicopter when he overheard 
the paramedics pronounce his mother dead. He will recover 
physically, but the long-term psychological effects are yet to 
be determined. Matthew, who is in a coma from massive head 
trauma, continues to make progress every day but is permanently 
disabled and requires around-the-clock care. Our lives will 
never be the same, but I can work to reduce truck driver 
fatigue so that another family will not have to suffer the 
tremendous loss that my family lives with every single day. If 
adopted, a proposed rule will save lives, improve driver 
health, reduce costs to society. I urge this subcommittee not 
to impede the progress the Department of Transportation has 
made to improve the HOS rule and protect the safety and well-
being of our families.''
    Mr. Slattery and Peter, who are here, I just want you to 
know that we are going to be very sensitive to the concerns 
that are expressed here, and we thank you very much for 
attending this hearing so that you can listen to the testimony.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Jordan. Let me thank the ranking member for his 
statement.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Let me also express on behalf of the chair and 
the entire committee our sympathies to the Slattery family and 
to your son Peter and the loss you have suffered. Obviously, we 
are all concerned about safety and we just want to make sure 
that whatever rule is put forward does, in fact, protect people 
as best we can, but also takes into account the economic 
concerns that I think are valid as well, so I appreciate that 
from our ranking member.
    Does the gentlelady from New York wish to make an opening 
statement?
    Ms. Buerkle. No, thank you, I yield back.
    Mr. Jordan. We'll get right--does the gentleman, the doctor 
from Tennessee have anything?
    Mr. DesJarlais. No.
    Mr. Jordan. Okay. We'll get right to our witnesses, and let 
me introduce, first we have Mr. Ed Nagle is president and CEO 
of Nagle Companies in Walbridge, Ohio, and has been involved in 
the trucking industry for over 30 years.
    We also have Mr. Glen Keysaw, who is the executive director 
of transportation and logistics for the Associated Food Stores 
Company.
    Mr. Robb MacKie is President and CEO of the American Bakers 
Association and has served on the food industry coalition for 
Hours of Service regulation, so worked directly with the issue 
in front of us.
    We have Mr. Frank Miller, director of logistics at Badcock 
& More, a home furniture company headquartered in Mulberry, 
Florida, and has worked on transportation issues for over 20 
years.
    We have with us also Mr. Henry Jasny, he was vice president 
and general counsel for Advocates for Highway and Auto Safety.
    And Dr. Jesse David, who is an economist and senior vice 
president at Edgeworth Economics with 15 years of experience in 
regulatory policy evaluations.
    Pursuant to the rules of the committee, all witnesses are 
sworn in, so if you will just please stand and raise your right 
hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, and if you do, just nod in the affirmative. Let 
the record show that everyone answered in the affirmative.

STATEMENTS OF ED NAGLE III, PRESIDENT AND CEO, NAGLE COMPANIES; 
 GLEN KEYSAW, EXECUTIVE DIRECTOR OF TRANSPORTATION/LOGISTICS, 
 ASSOCIATED FOOD STORES, INC., ROBB MACKIE, PRESIDENT AND CEO, 
    AMERICAN BAKERS ASSOCIATION; FRANK MILLER, DIRECTOR OF 
  LOGISTICS, BADCOCK & MORE; HENRY JASNY, VICE PRESIDENT AND 
  GENERAL COUNSEL, ADVOCATE FOR HIGHWAY AND AUTO SAFETY; AND 
 JESSE DAVID, PH.D., SENIOR VICE PRESIDENT, EDGEWORTH ECONOMICS

    Mr. Jordan. And we're going to start with Mr. Nagle, and 
then we'll just move down the line. You guys know the rules, 
you get 5 minutes, and stay as close to that as you can, and 
then we'll get to our questions once we've heard from all six 
of you. Mr. Nagle.

                   STATEMENT OF ED NAGLE III

    Mr. Nagle. Good morning, Mr. Chairman and members of the 
subcommittee. In addition to being employed in the trucking 
industry over 30 years, I grew up in it, as my late grandfather 
began driving after World War II and then ran several trucking 
companies, including his own until retirement. Our company, we 
service most of the top ten food manufacturers as well as the 
largest food distributors in the United States.
    There are two elements of this proposed Hours of Service 
reform that will critically affect the industry: the reduction 
in the allowable driving hours from 11 to 10 and combined with 
the 34-hour restart provision that requires two consecutive 
midnight to 6 a.m. off duty periods. For our company, this 
effectively reduces our ability to generate revenue by 17 
percent, as in our operation our drivers would be limited to 
working 50 hours a week from the current 60. Our cost of 
operations is a fixed cost of $75 an hour with our equipment. 
Changing it to this proposed 50 hours, our fixed cost now 
becomes $90 an hour with nothing more than the stroke of a pen.
    FMCSA states that ``we note that the proposed rule,'' so on 
and so forth, without significantly compromising the driver's 
ability to do their jobs and earn a living. And I need to ask 
Secretary LaHood what his definition of ``significant'' is. 
Basically they're admitting that a driver's ability to perform 
his duties and earn an income will be compromised. Our truck 
payments, our drivers' wages, our insurance costs and all the 
associated costs of business don't go down just because our 
ability to produce revenue has been restricted.
    The current proposal is effectively influenced by the 
Teamster Union LTL daytime-only drivers. That represents 10 
percent of the entire industry workforce, and by placing great 
emphasis on the studies that are essentially based on an 
irrelevant percentage of the entire trucking industry is a 
smokescreen. It is an illusion that was being proposed will be 
a one-fit-for-all panacea of solutions for an industry that is 
safer today than at any time in recorded history.
    In order for our company just to break even with all the 
proposed constraints, we would need to raise our rates about 20 
percent. That will have a serious hyperinflationary consequence 
on our economy, and households will be suffering the most.
    Since 2003 there have really been no prior--excuse me, 
since 1938 there have been no substantive changes in the Hours 
of Service. Since 2003 this will be the fifth proposed change. 
What has occurred in our industry over the last 8 years 
requiring so many legislative actions? Sadly, those of us who 
eat, sleep, breathe, and live transportation feel that politics 
is becoming the pulse of our industry and not pragmatic supply-
chain solutions. Since 2003 there's been a 33 percent drop in 
truck-related fatalities as well as a 40 percent drop in truck-
related injuries; not only a percentage basis, but on a per 
million-mile-basis has been significantly reduced.
    Our company is an irregular route carrier, meaning that we 
have no predictability in our scheduled freight. Drivers 
encounter events every day that are unplanned and totally out 
of their control. We have lost a very important provision 
starting in 2003 and eliminated in its entirety in 2005, which 
is the split-sleeper berth provision. That was one fundamental 
log book provision that gave our drivers the flexibility to 
comply with Hours of Service in the areas in which they get 
involved in unpredictable and out-of-control situations. The 
receivers will not let us drop, you know, our equipment, stay 
there for 10 hours, and we're being forced at times to run 
illegally because we're out of hours until we get to a safe 
haven.
    As an industry, we are asking that even though FMCSA 
acknowledges the lack of available rest areas, provide us the 
opportunity and the drivers to remain legal with the 
flexibility of finding a place that can accommodate them 
comfortably.
    So in summary, please keep the 11-hour driving rule, 
maintain the current 34-hour restart provision that would not 
include two consecutive midnight to 6 a.m. off duty, and if we 
can continue to get that sleeper berth provision, that would be 
a tremendous benefit to the industry.
    Thank you very much, and best wishes to you and your 
families for the holiday season.
    Mr. Jordan. Thank you, Mr. Nagle.
    [Prepared statement of Mr. Nagle follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Mr. Keysaw.

                    STATEMENT OF GLEN KEYSAW

    Mr. Keysaw. Mr. Chairman and members of the subcommittee, 
my name is Glen Keysaw. I'm the director of transportation and 
logistics for Associated Food Stores based in Salt Lake City, 
Utah. Associated is a retail cooperative founded in 1940. We're 
a privately held company that provides grocery products and 
services to about 500 independently owned retail supermarkets 
in eight Western States from three warehouse distribution 
centers.
    Thank you for inviting me today, today's hearing on pending 
Hours of Service rules. My testimony is presented on behalf of 
Associated Food Stores and the Food Marketing Institute, which 
represents retail supermarkets and food wholesalers throughout 
the United States. I plan to summarize and ask that my entire 
written testimony and attachments be made a part of the record.
    Mr. Chairman, Associated Foods strongly supports the 
current Hours of Service regulations. We do not support the new 
Hours of Service rules that are being proposed by the 
Department of Transportation for the following important 
reasons: Pending Hours of Service rules will not be good for 
the grocery store industry as they will not be good for my 
company, and, in particular, our truck drivers.
    The proposed Hours of Service rules will also negatively 
impact consumers who shop for groceries in our stores. If DOT 
decides to finalize this rulemaking, it will adversely affect 
my company in terms of costs. I've done a quick economic 
estimate on the proposed rules to our Farr West warehouse. 
Under the HOS proposal, if we're to maintain the same level of 
service to our retail accounts from our Ogden facility, we will 
need to make a capital investment of $1.7 million for new 
equipment, namely tractors and trailers. A new tractor with a 
sleeper costs about $116,000 and the trailer costs about 
$75,000. We will incur increased costs, such as salaries and 
benefits for additional drivers, totaling more than $200,000 
annually. In this regard, I'm very worried from a strict safety 
perspective that we won't have enough qualified drivers 
available to fill our future needs under the new HOS rules.
    I should mention that since the inception of the current 
HOS rules, Associated truck fleet has traveled 52 million 
miles. During this time we have had eight preventible DOT 
reportable accidents. This translates to 1.5 accidents per 
million miles compared to the national average of 0.7 accidents 
per million miles. In addition, Associated has not had a single 
inspection resulting in our equipment or drivers being put out 
of service. We are proud of our safety record and don't want to 
see any changes that might negatively impact it.
    My company will also incur additional fuel and maintenance 
costs for newly acquired equipment over $100,000 along with 
expenditures for insurance and miscellaneous fixed costs. As 
such, the total costs of the rulemaking for our Ogden warehouse 
will be well over $2 million. For an industry that operates on 
a profit margin of 1 percent, any new costs resulting from the 
Hours of Service proposal will be felt immediately.
    Earlier I mentioned that the DOT rulemaking won't be good 
for our truck drivers. With its reduced drive time, the rules 
will mean more layovers for them. My company is proud of the 
fact that over 65 percent of our drivers are able to go home 
and be with their families after they complete their shift, but 
this won't be the case under the Hours of Service proposal. 
This means our drivers' quality of life will suffer.
    I have a letter from one of our drivers who traditionally 
does a route from the Farr West warehouse to stores in Twin 
Falls, Idaho, that I would like to enter into the record. This 
run takes about 10 to 11 hours. The reason he likes this job 
and this route is that he gets to spend the night at home with 
his family, but under the new rules he will have to sleep in 
his truck 2 to 3 nights a week.
    Consumers, unfortunately, will be paying more for groceries 
because our transportation costs will increase. The proposed 
rules will also mean increased transportation costs for all 
agriculture-related sectors, from farmers all the way to 
retail.
    Sadly, consumers who live in rural areas will be hurt most 
in terms of how much they will be paying for their groceries 
because of this rulemaking. With the current economic 
recession, we can't afford any unnecessary and costly 
regulations such as the new Hours of Service proposal. Higher 
prices for groceries will be tough for families who are already 
struggling financially, especially the 14 million Americans who 
are unemployed, the millions of seniors living on fixed 
incomes, and for those who are dependent on domestic feeding 
programs such as WIC, whose benefits won't buy as much when 
food prices go up. It's difficult to project how much the 
proposed Hours of Service rules will ultimately cost consumers, 
but we know there will be increased costs that will 
unfortunately have to be passed along.
    To conclude, we believe that current Hours of Service rules 
are working well, and we see no quantifiable reason to change 
them. The rules that are on the books are easily understood, 
they are promoting safety and compliance. Over the past 7 years 
since the current Hours of Service rules were put in place, 
fatalities and injuries involving large commercial vehicles are 
down by more than one-third. As a matter of fact, fatality and 
injury statistics are at their lowest levels, even though the 
number of miles driven is increasing. Our industry strongly 
supports the current Hours of Service framework, and it should 
be retained. Thanks for allowing me to participate.
    Mr. Jordan. Thank you, Mr. Keysaw.
    [Prepared statement of Mr. Keysaw follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Mr. MacKie.

                    STATEMENT OF ROBB MACKIE

    Mr. MacKie. Mr. Chairman, members of the subcommittee, my 
name is Robb MacKie, and I'm the President and CEO of the 
American Bakers Association. ABA is the voice of the wholesale 
baking industry and advocates on behalf of the $102 billion 
baking industry, employing 630,000 skilled employees and more 
than 700 baking and supplier facilities around the country. ABA 
members produce bread, rolls, Thanksgiving pies, tortillas, and 
many other wholesome, nutritious, baked products for America's 
families.
    The wholesale baking industry currently operates the fourth 
largest fleet of vehicles behind the Postal Service, FedEx,and 
UPS. ABA greatly appreciates this opportunity to provide its 
perspective on the Federal Motor Carrier Safety 
Administration's Hours of Service regulation.
    The majority of ABA members utilize their own fleets of 
vehicles for the interstate distribution of baked goods to 
their customers. The industry views itself as bakers and not as 
trucking companies. Driving is incidental to the true function 
of route sales representatives, which is sales and customer 
service. The wholesale baking industry makes its living on 
delivering the freshest possible product to grocery stores and 
restaurants. In addition to the safety of the industry's 
employees and the public, the idea of a truck with a company or 
family name on the side of it involved in a traffic accident is 
a huge incentive to operate in a safe manner.
    The nature of many bakers' distribution systems involve 
operators making repeated and sometimes lengthy stops during 
the course of their work day. Route sales representatives may 
make a couple of dozen stops in a single day. They spend more 
than half of their time in nondriving activities, servicing the 
customer, stocking shelves or in-store marketing activities.
    The rule at the heart of today's hearing marks the fourth 
major rewrite of this regulation by FMCSA in the past 12 years. 
The current Hours of Service regulations have been effective in 
improving safety, as demonstrated by the current crash data 
trends. The safety performance of trucks has improved at 
unprecedented rates under the current Hours of Service 
regulations. The number of fatal accidents and injuries 
involving large trucks have declined by more than a third to 
historically low levels. Given these facts, we find it 
difficult to understand the rationale for added regulation, 
especially one that even FMCSA recognizes would 
disproportionately and negatively impact the short-haul segment 
of the trucking industry, of which bakers are part.
    Typically DOT has treated the vehicles that our industry 
operates similarly even though, as you can see, they're very 
different vehicles indeed. According to FMCSA, the relative 
costs and benefits differ considerably between the long-haul 
and the short-haul segments. Most of the costs arise on the 
short-haul segment, but all of the purported benefits come from 
reducing long-haul crashes. Fatigue and fatigue-related crashes 
are considerably less common in short-haul operations, where 
the operator is typically returning home at the end of their 
work day.
    FMCSA crash data indicates that commercial motor vehicles 
less than 26,000 pounds account for 52 percent of registered 
trucks but account for 10 percent of fatal accidents and 14 
percent of nonfatal accidents. Clearly, any fatality is too 
many, but logic and cost-benefit analysis dictates that any 
regulatory effort be proportional to the risk.
    Another undue burden would be created by the proposed 
change in the 34-hour restart provision, requiring drivers to 
rest a minimum of two consecutive complete nights. This would 
do little to promote driver safety in short-haul operations and 
wreak havoc with finely tuned distribution systems. A typical 
route sales representative will not have two consecutive days 
off, as bakeries are down on Tuesdays and Sundays. Also, most 
deliveries by bakers take place in the early morning, the very 
hours required by the rule that they be at rest, to ensure that 
local grocery store shelves are well stocked with the freshest 
possible product for customers. Many baked goods have 4 to 5 
days of shelf life, making timely delivery critical.
    The change to the 34-hour restart provision outlined in the 
rule could also require short-haul operators to deploy more 
equipment and resources during peak commuter driving hours. 
This could adversely impact safety and air emissions while also 
negatively impacting productivity for both the drivers and the 
customers. This may result in lost sales as well as production 
delays.
    If the new Hours of Service regulations become effective, 
it will be more difficult and costly to deliver products, 
increase traffic during the most congested times of the day, 
and result in more dangerous roads.
    In conclusion, there is little safety benefit or rationale 
to change the existing rules. Again, the proposal would require 
significant changes to baking industry distribution systems, 
would impact employee work hours, and increase the cost of 
delivering fresh bakery products. Ultimately, the consumer will 
feel these costs at the checkout aisle. With the high 
unemployment and high food inflation, now is the worst time to 
be pushing regulation for regulation sake.
    The ABA appreciates this opportunity to provide input to 
the subcommittee and be happy to answer any questions.
    Mr. Jordan. Thank you, Mr. MacKie.
    [Prepared statement of Mr. MacKie follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Mr. Miller.

                   STATEMENT OF FRANK MILLER

    Mr. Miller. Chairman Jordan, members of the subcommittee, 
my name is Frank Miller, and I'm the director of logistics for 
W.S. Badcock Corporation. Thank you very much for the 
opportunity to come here today to testify on the Department of 
Transportation's proposed changes to the drivers' Hours of 
Service regulations.
    Today I will testify on behalf of W.S. Badcock Corporation 
and the National Retail Federation. Badcock, the NRF, and its 
members strongly support the current Hours of Service 
regulations and question the need to make changes. The Federal 
Motor Carrier Safety Agency must consider significant economic 
impact that changes to the current Hours of Service will have 
across the industry, including the impact to retail operations 
at both the store and distribution center level. Unfortunately, 
we do not believe the proposed changes meet these requirements 
and will have a significant negative impact on the industry, 
the economy, and potentially driver safety.
    W.S. Badcock Corporation is one of the largest privately 
owned home furniture retailers in the United States. Founded in 
1904, Badcock has been operating for more than a hundred years 
with 300 stores and 1,200 associates located throughout the 
Southeast. As the world's largest retail trade association and 
the voice of retail trade worldwide, NRF represents retailers 
of all types and sizes, including chain restaurants, industry 
partners from the United States, and more than 45 countries 
abroad. Retailers operate more than 3.6 million U.S. 
establishments that support one in four U.S. jobs; 42 million 
working Americans contributing $2.5 trillion to annual GDP, 
retail is truly the daily barometer for the Nation's economy.
    Badcock's transportation network consists of more than 45 
tractor-trailers which run more than 4 million miles annually 
in eight southeastern States and a fleet of delivery trucks 
operating from Badcock stores to the customers' homes. In 
addition, Badcock tenders more than $3 million in freight 
annually with U.S.-based common carriers. We estimate that the 
proposed change in Hours of Service rules could increase 
transportation costs for Badcock by 10 to 20 percent annually. 
For Badcock, this would result in an estimated increase of 
approximately $2.8 million annually. We are also concerned 
about the possibility for adverse unintended consequences as a 
result of the proposed changes that could lead to further 
increases in cost.
    For Badcock, a reduction in driving time from 11 hours to 
10 hours would affect an estimated 11 percent of loads, 
resulting in an approximate cost of $1.5 million, force the 
company to increase driver compensation to retain drivers, and 
increase its fleet size and pay higher rates for trucking. The 
changes to the 34-hour restart could affect an estimated 6.6 
percent of Badcock loads a year, resulting in an additional 
annual cost of $940,000. Those common carriers utilized by the 
company would most certainly also be impacted by the change. We 
feel the changes will result in more lost carrier productivity 
that will be passed directly to the consumer as millions of 
dollars in rate increases.
    In addition, it is important to note that distribution 
networks are experiencing increased demand, which is expected 
to grow substantially. This is significant as the economy 
continues to recover from one of the worst recessions in 
history.
    Additional trucks and drivers will be necessary to meet 
this growing demand regardless of the Hours of Service 
requirements. Adding new capacity will be extremely difficult, 
as there is currently a shortage of available safe, qualified 
drivers.
    We are also concerned about the potential adverse impact on 
road and highway safety and on many environmental investments 
in the supply chain and transportation industry. The proposed 
changes to the Hours of Service rules may increase the number 
of trucks deployed to move the same freight while restricting 
the ability to move a portion of this freight during nonpeak 
commuting hours.
    In the transportation sector, many retailers are actively 
pursuing strategies to greatly reduce their carbon footprint in 
the supply chain. Many of these initiatives involve efforts to 
reduce hauls and deploy trucks as productively as possible 
during nighttime hours.
    To conclude, on behalf of W.S. Badcock Corporation and the 
National Retail Federation, I again would like to thank you for 
this opportunity to testify during today's hearing. On behalf 
of America's retailers, we urge the FMCSA to maintain the 
current Hours of Service regulations which are working, and I 
look forward to answering any questions the members of the 
committee may have. Thank you.
    Mr. Jordan. Thank you, Mr. Miller.
    [Prepared statement of Mr. Miller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Mr. Jasny.

                    STATEMENT OF HENRY JASNY

    Mr. Jasny. Good morning, Chairman Jordan, Ranking Member 
Kucinich, and members of the Subcommittee on Regulatory 
Affairs, and thank you for inviting me to testify today. I am 
Henry Jasny, vice president and general counsel for Advocates 
for Highway and Auto Safety, a nonprofit coalition of public 
health, safety, consumer groups, and insurers dedicated to 
advancing highway safety.
    Advocates has worked on truck safety issues, and driver 
fatigue in particular, for 20 years, participating in national 
summits, the Hours of Service regulatory docket, which we filed 
many comments on, and in the legal litigation that's been 
ongoing. Truck crashes are a serious and deadly problem that 
kill thousands and injure tens of thousands of people each 
year. Even with the recent decline in large truck crashes, over 
3,380 people were killed and 73,000 injured in 2009. This is 
equivalent to a major airplane crash every other week of the 
year. The annual cost to society remains over $40 billion.
    To put a face to these statistics, I know that Mr. Slattery 
was introduced, and his son Matthew, earlier by ranking member 
Kucinich. Also in the audience is Marchelle Wood who lost her 
college-aged daughter and a friend to a tired trucker crash in 
2002.
    The DOT estimates that crashes involving truck driver 
fatigue kill as many as 500 people a year, but the actual 
number we think may be twice that figure. We think that this 
shopping Christmas season, consumers will want to know that 
when they go to pick up their bargains that they can return 
home safely without running into a tired trucker.
    The research and the science support reform of the HOS 
rule. Studies have found that since the current HOS rule went 
into effect, large numbers of truckers admit to falling asleep 
behind the wheel while operating commercial motor vehicles that 
weigh up to 80,000 pounds. We saw one side with statistics 
regarding nearly half of the truckers who were polled in 2006, 
after this current rule went into effect, said they had fallen 
asleep at least once in the prior year. Those statistics are a 
clear warning that driver fatigue remains a major safety 
problem that needs to be addressed by a change in the rules.
    The 2003 final rule on which the current rules are based 
contradicts the scientific research and evidence regarding 
fatigue and the FMCSA's own findings of fact. The basic 
principles are straightforward. Driving and working long hours 
causes fatigue, as shown in truck crash data. Crash risk 
increases geometrically after the 8th consecutive hour of 
driving a truck. Driving during the 11th consecutive hour 
exposes both drivers and the public to an additional hour of 
danger when the crash risk is at its highest level.
    Allowing only 34 hours off duty instead of taking more time 
for rest and recovery, as was allowed in the prior rule before 
2004, results in cumulative fatigue due to lack of sufficient 
sleep. And finally, truck drivers need between 7 and 8 hours of 
sleep each night between shifts to be alert while driving. 
FMCSA found that drivers get less than 6 hours of sleep on 
average between work shifts under the current rule, since the 
current HOS rule violates those basic principles of science and 
it is fundamentally flawed and needs to be revised.
    Furthermore, claims that there is no safety problem under 
the current rules or that the current rules have contributed to 
safety are false, have no scientific support, and no basis in 
fact. They are literally junk science.
    The legal decisions also support reform of the HOS rule. 
The two unanimous decisions of the U.S. Court of Appeals that 
vacated the rule reinforced the view that the current rule was 
unsafe and needs to be reformed. The initial decision held that 
the lack of analysis of the driver health issue was fatal to 
the rule. The court went on, however, to point out that many 
legal deficiencies in the agency's reasoning abounded. Among 
them, the court questioned the legal sufficiency of the 
agency's justification to the 11-hour limit and rebuked the 
agency for not addressing cumulative fatigue resulting from the 
short 34-hour restart provision. The judge who wrote that 
initial opinion was nominated to the Federal Court bench by 
Senator Jesse Helms.
    The cost of reform of the rule. Not reforming the Hours of 
Service rule will cost consumers and taxpayers billions of 
dollars in deaths, injuries, and crash costs as well as driver 
health costs and shortened life spans. The benefits to society 
of the option supported by Advocates, the 10-hour rule, far 
outweigh the costs and result in an economic benefit to the 
country of between $380 million and $1.2 billion annually from 
reduced impacts on driver health, coupled with the prevention 
of numerous deaths and injuries and crashes.
    The reform option supported by Advocates also would create 
40,000 new driver jobs. This is a major benefit to society at a 
critical time for job creation. This is in stark contrast to 
the current HOS rule, which eliminated nearly 50,000 jobs since 
it took effect in 2004. Unfortunately, not all companies have 
good safety records like Mr. Keysaw's company, so they need to 
be governed by regulations that will keep them in line.
    And finally, in closing, I would like to say that the 
Edgeworth analysis that you've introduced to the record 
recommends that there be no calculation for driver health and 
safety costs, medical costs. And we think that that's an 
unreasonable position, and that if that was adopted by the 
agency, that that would build in an arbitrary and capricious 
argument if the rule goes up on review to the court once again.
    With that, Mr. Chairman, I would like to introduce my 
written statement to the record.
    [Prepared statement Mr. Jasny follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jasny. I would also ask that the statement of Marchelle 
Wood--I would like to submit that to the record, and I would be 
ready to answer any questions.
    Mr. Jordan. Without objection.
    [Prepared statement of Ms. Wood follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you, Mr. Jasny. Let me also express, on 
behalf of the chair and the committee, our sympathies to the 
Wood family, and thank you for being here today.
    Dr. David.

                STATEMENT OF JESSE DAVID, PH.D.

    Dr. David. Thank you, Mr. Chairman, members of the 
subcommittee. I'm an economist and a vice president at 
Edgeworth Economics, a consulting firm here, based here in 
Washington. I have a Ph.D. with a specialization in public 
finance and environmental economics and 15 years of experience 
in regulatory policy evaluation. I was retained, my firm was 
retained by the ATA to analyze the cost-benefit calculations in 
FMCSA's RIA. My report focuses on whether the agency's methods 
are accurate and consistent with current data and compares the 
agency's approach to the approach taken in previous RIAs.
    To summarize, the proposal to restrict driving time to 10 
hours a day from the current limit of 11 hours, FMCSA estimates 
lost productivity costs of about $1 billion per year and 
benefits of about $1.4 billion per year related to reduced 
crashes and improved driver health. So the net benefits 
estimated by the agency for that option are about $380 million 
per year.
    To obtain these results, FMCSA made several changes to 
their previous approaches used in previous RIAs. I find that in 
every instance the new methods increased the purported benefits 
of the proposed rule. However, many of these new approaches 
misapply available data, use outdated information or lack 
empirical support entirely, and I'll describe here three of the 
most significant issues.
    First, FMCSA uses outdated information on large truck 
crashes. Since the proposed rule is intended to reduce crash 
frequency, obviously this is a key input to the analysis. FMCSA 
uses a figure of 434,000 crashes per year, which is 
approximately the rate of crashes 10 years ago before the 
current HOS rules were implemented. Large truck crashes, 
however, have fallen steadily since then, recently falling to 
286,000 in 2009. That's 34 percent lower than the agency's 
figure. I'll note that decline was occurring before as well as 
during the current economic downturn, as you can see from a 
chart which I attached to my testimony. FMCSA's use of old data 
inflates the benefit of the proposed rule by about $250 million 
per year.
    A second issue relates to FMCSA's calculation of the 
fraction of crashes caused by driver fatigue. Obviously this is 
another critical assumption since that proposed rule would 
affect only those types of crashes. In the 2007 RIA, FMCSA 
concluded that fatigue was a factor in about 7 percent of 
crashes. The agency now uses different methods and data, in 
particular the large truck crash causation study or LTCCS and 
calculates a figure about twice as high, 13 percent.
    However, the agency's new method is flawed. FMCSA 
inappropriately assumes that each associated factor identified 
in the LTCCS for a particular crash was the cause of the crash, 
even if multiple factors were present. So, for example, suppose 
investigators identified three associated factors for a crash, 
a particular crash--prescription drug use, speeding, and 
fatigue. The agency assumes that eliminating only driver 
fatigue would have caused that crash to be avoided. This new 
method contradicts FMCSA's own conclusions in the LTCCS report 
when it had acknowledged that each associated factor should not 
be considered to represent an independent cause of the crash. 
Increasing the assumed fraction of crashes caused by fatigue 
from 7 percent in the previous RIA to the unsupportable 13 
percent figure inflates the benefits of the proposed rule by 
$330 million per year.
    A third issue relates to the benefits of increased sleep 
time for driver health. Previously FMCSA had concluded that 
existing HOS rules did not adversely affect driver health. The 
agency now, however, includes substantial health benefits from 
small increases in sleep time within the normal range of 6 to 8 
hours, and in fact according to FMCSA about half of the total 
benefits of the rule would come from this rather than from 
reduced crashes.
    One problem with FMCSA's approach relates to the 
application results from a study by Ferrie, a sleep researcher. 
Ferrie measured mortality rates for a cohort of British civil 
servants in the 1980s who had reported sleep levels in the 
categories of 5 hours or less, 6, 7, 8, and 9 hours or more. 
While Ferrie did find increased mortality associated with the 
lowest and highest sleep levels, the researchers found no 
statistically significant differences between the mortality 
rates of people who reported between 6 and 8 hours of sleep.
    Other academic research confirms this conclusion. For 
example, Cappuccio found there is no evidence that sleeping 
habitually between 6 and 8 hours per day in an adult is 
associated with harm and long-term health consequences. FMCSA 
cites the Cappuccio study but ignores this key finding. I 
understand that Professor Cappuccio has submitted a report into 
this docket stating that the agency misinterpreted his research 
to support its conclusions.
    FMCSA's unsupported assumptions about reduced driver 
mortality inflate the benefits of the proposed rule by $690 
million annually.
    In addition to these three issues, there are other 
unsupported assertions and methodological errors in the RIA 
which further inflate the apparent benefits of the proposed 
rule. If these problems are corrected, I find that the new rule 
would result in a net cost of about $320 million annually 
rather than a net benefit of $380 million, as calculated by the 
FMCSA.
    I note that Mr. Jasny stated that we had a recommendation 
that the new rule not include benefits from improved driver 
health. That's certainly not my position. I just believe the 
calculation should be done based on the most accurate and the 
best available data. I thank you for your time, and I encourage 
you to read my report for additional information on these 
questions.
    Mr. Jordan. Thank you, Doctor.
    [Prepared statement of Mr. David follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Let me just start with you. Mr. Jasny, in his 
testimony, said that this new proposal would create 40,000 
jobs. And we just heard from four witnesses, the first four 
witnesses who said it's going to cost them more money, this new 
rule, yet Mr. Jasny said it's going to create more jobs. As an 
economist, what's your take on what may happen with the new 
rule?
    Dr. David. Well, the goods still have to be transported, so 
under the FMCSA's assumption, the drivers who are now driving 
are going to drive fewer hours. Those hours would need to be 
replaced. I assume that their income would go down, and 
possibly someone else's income would go up. Perhaps there would 
be some new drivers. I think the overall amount of driving 
probably wouldn't change that much.
    Mr. Jordan. Okay, let me come to Mr. MacKie. It seems to me 
the current rules are working. We've got--the safety numbers 
have been good. That's with increased miles, we've seen 
increased trucking miles over the last decade. I mean, is in 
fact the current rule working in your estimation just the way 
it's supposed to?
    Mr. MacKie. Well, it's certainly not perfect as it applies 
to short haul, and we continue to work with DOT on some issues 
around the edges, but by and large it works, and the data, as 
we've heard today, clearly illustrates that. I mean, it's a 
pretty substantial reduction, 30, 33, 34 percent reduction in 
those accidents involving trucks. So it seems to be working 
pretty well.
    Mr. Jordan. And would you also agree that there's the 
potential, at least, if the new rule is put in place, that we 
could see potentially more accidents, we could see a harm to 
the safety record because, as Dr. David just talked about, 
there will now be more drivers on the road. My understanding is 
the way the rule would work as well, there would potentially be 
more drivers on the road during the daytime hours when there's 
also more just people, nontruck drivers out, going, doing the 
shopping, going to work, doing the things they do. Is that a 
fair assessment?
    Mr. MacKie. It absolutely is. I think you will get a few--
our members indicate they would have to hire swing drivers to 
cover those additional hours, frankly, to be on the margin of 
safety and error so they don't run the risk of going over the 
reduced hours that would be available.
    Similarly, the--particularly in our industry, as Mr. Keysaw 
can attest to, you know, we are delivering products in the 
early morning hours, 4 or 5 a.m., so that when the customer 
walks in the store the first thing in the morning they have got 
fresh bread.
    Mr. Jordan. Right.
    Mr. MacKie. And so you're going to push those hours into 
the daytime hours, and it's going to be----
    Mr. Jordan. What about the midnight rule? Do you think 
there's also the potential--we would like to not think this, 
but also the--possibly the potential that some drivers may want 
to drive a little faster to beat that deadline?
    Mr. MacKie. I think that is--I don't have any data to back 
that up, but clearly----
    Mr. Jordan. But it's----
    Mr. MacKie. --human nature indicates they're going to want 
to get home sooner.
    Mr. Jordan. --fair to assume that they may try to, when 
increased speed means increased chances of accident, increased 
chances of harm?
    Mr. MacKie. Absolutely.
    Mr. Jordan. All right. And then so it seems to me the 
current rule is working, there's the potential for increased 
safety concerns under the new rule, and as we've heard from the 
first four witnesses, all this is going to create more cost, 
and I would still argue that there's--you know, the idea that 
we're going to have more jobs, I mean, just basic economics 
says, okay, let's--what's the example you always get in 
economics class? Let's go break everyone's windows so that 
we'll have to hire more people to come fix the windows. We 
created jobs, but did that really add to the overall economy, 
add to wealth, add to what we want to have happen in our 
economy? I would argue this is in some ways moving in that 
direction, so it just doesn't make sense to me.
    Mr. Nagle, talk to me briefly about the 34--moving from the 
34-hour rule to the consecutive nights and what that may mean. 
And it seems to me that's the one that could be a potential big 
cost to trucking companies.
    Mr. Nagle. That is potentially a real problem because of 
the fact that you may have a driver that gets in after 
midnight, it could be 12:15, 12:30, and he now has to literally 
go 54 hours until his next available driving time, so he's 
going to lose an entire day of productivity, ultimately a day 
of his wage, and the company itself is going to have the same 
loss of revenue, increasing our fixed costs per hour even 
further. Drivers are going to stay away from home longer. FMCSA 
states that even though they don't have the statutory authority 
to address the lack of available rest areas and accommodations 
for truck drivers, it's going to cause these guys or force 
these guys to stop in areas where there are no accommodations. 
They're going to be in shopping mall parking lots, they're 
going to be just pulled off the road on some of the major 
highways. They're not going to have rest; you know, essentially 
forcing a guy to stay 54 hours in an area the size between the 
top and lower bunks of your children's homes is inhumane and 
cruel. They're not going to have any restroom facilities, 
they're not going to be able to have hot food or any of the 
accommodations. How somebody can rest better under those 
conditions is beyond my reasoning.
    So the quality of life is going to diminish further, and 
for our area of service, we're a regional carrier that services 
primarily the East Coast from Baltimore-D.C. up to Portland, 
Maine, it's going to just reduce our productivity 
substantially.
    Mr. Jordan. Thank you, Mr. Nagle. My time is up. I'll yield 
now to the ranking member.
    Mr. Kucinich. Thank you very much, Mr. Chairman. You know, 
since the debate here is really monetizing the costs of 
regulation versus monetizing the cost of not having effective 
or better regulation, I just want to submit for the record two 
documents.
    [None submitted.]
    Mr. Kucinich. One speaks to the regulatory impact analysis 
for the HOS proposed rule estimates that, based on a 10-hour 
work day, the monetized annual safety benefits and driver 
health improvement benefits range from below $300 million to 
more than $2.4 billion in quantifiable benefits from reduced 
crash and injury costs, lower medical and health payments, and 
longer, healthier driver life expectancy.
    One of the--you know, you can't just talk about the cost of 
regulation which--without looking at the compensating factors 
if you don't have the extra costs from these crashes.
    Now, how do you monetize the cost, going beyond that, to 
the Slattery family or the Wood family? You know, actually 
juries do, which is one of the reasons why the Insurance 
Institute of Highway Safety filed--the research arm of the 
industry filed an amicus brief in a lawsuit that supports and 
affirms the problem of fatigue and our insurance companies that 
are members of Advocates for Auto and Highway Safety, they 
support reducing fatigue. If we're going to have a hearing on 
the costs, and I think it's a legitimate question, what are the 
costs, but you've got to weigh it in terms of what are the 
costs to society on the other side. If you don't do both, you 
don't really get a fair reading.
    Now, Mr. Nagle, I want to ask you questions about a company 
that my staff has identified. My staff found that there's a 
Nagle Toledo, Inc., which is listed on the Federal Motor 
Carrier Safety Administration safety measurements system as DOT 
423609. You're here as the CEO of the Nagle Companies. I have a 
copy of the bio that was submitted to this committee that goes 
over your involvement in the industry, and it has you as CEO of 
Nagle Companies, and it also lists Nagle Toledo, Inc. as one of 
the companies that you lead. Is that correct?
    Mr. Nagle. Yes, sir, it is.
    Mr. Kucinich. Okay. Well, you know, I want to discuss 
something with you because the Federal Motor Carrier Safety 
Administration's compliance review, which I have a copy of 
here, of Nagle Toledo reviews--or reveals serious Hours of 
Service and other safety violations. Now, according to the 
Federal Motor Carrier Safety Administration, Nagle Toledo has 
received 12 unsafe driving violations within the past year and 
23 over the past 2 years. Now that's in this report. Is that 
information accurate?
    Mr. Nagle. That is correct.
    Mr. Kucinich. And the Motor Carrier Safety Management 
System also shows that Nagle Toledo has received 13 fatigued 
driving violations within the past year, 32 over the past 2 
years; in the past year, 9 of the 13 violations resulted in an 
out-of-service order, including seven violations for requiring 
or permitting the driver to drive after 14 hours on duty, one 
false report of driver's record of duty status, and one 
violation for requiring or permitting the driver to drive more 
than 11 hours. Is this information that was given to the 
government, is that correct?
    Mr. Nagle. That is correct, sir.
    Mr. Kucinich. And is it also true that Nagle Toledo has 
been involved in two Department of Transportation reported 
truck crashes over the past year and five in the past 2 years; 
is that correct?
    Mr. Nagle. I would have to defer that the report's probably 
correct.
    Mr. Kucinich. Okay. Let me ask you this. You know, I 
understand you're here opposed to going back to the 10-hour 
limit on consecutive driving. But help us in this committee, in 
terms of your own experience, your own experience, how is that 
practical and how can I take your testimony, based on the 
record that's in here--you know, help me square your-- the 
record that's in here with your testimony, Mr. Nagle, please.
    Mr. Nagle. Thank you for those points, and I'm glad to 
address the issue. First of all, the stepped-up CSA enforcement 
at the beginning of the year, we also did the same on our 
internal controls. What that report doesn't tell you is there 
were 7 or 8 offenders during that time period. Prior to that 
audit, we had fired four or five of those individuals because 
of those violations, and that was prior to the audit. The other 
two or three were on their final warning and had since been 
terminated before we even received that report back from the 
PUCO.
    Mr. Nagle. Now, we take that very seriously.
    Mr. Kucinich. Well, listen, I imagine. I mean, you are 
running a company, you have to take it seriously because----
    Mr. Nagle. Correct.
    Mr. Kucinich. --there is a bottom line you have to be 
concerned about. You have to be concerned about your insurance 
costs.
    But what I'm wondering, as a boss, you've got workers who 
are putting in all these more hours. Don't you have some 
concern that they might be working too many hours and it makes 
your company vulnerable--if not just your company, you know, 
the people in the larger community? I mean, don't you have a 
concern about that at all?
    Mr. Nagle. Sir, I have a tremendous concern about that. In 
fact, I personally spend time educating the general public 
about sharing the road and also communicating to them that our 
drivers are not just these killer trucks that some of the 
people try to portray. It's more than just a cost-benefit 
analysis, okay? I have a moral obligation to make sure that our 
drivers operate in a safe fashion.
    Now, part of the issues that came up--fatigue is probably 
one of the most misnamed things. And several of those were 
literally a clerical error, where the driver mis-added his 
hours of service. But, more importantly, with the split-
sleeper-berth issue that I mentioned briefly before--and it's 
in my written report--when one of our drivers will go into an 
area that's, you know, heavily populated, we get detained above 
and beyond the hours of service. Well, they're not allowed to 
stay at a customer in Brooklyn or wherever the place may be. 
We're forced at times, during a period of time, to drive 
illegally to go to a safe haven.
    So I would say half of those violations were a result of 
the logbook changes that have occurred over the last 5 years.
    Mr. Kucinich. Mr. Chairman, I appreciate your indulgence in 
giving the witness time to respond because I know that expanded 
the time that I had.
    I just want to add this, if I may, with the chair's 
indulgence.
    Mr. Jordan. Sure.
    Mr. Kucinich. You got rid of some of these employees so 
there----
    Mr. Nagle. Correct.
    Mr. Kucinich. --would be a little bit more than a clerical 
error.
    And the only point I'm making, Mr. Chairman--and I want to 
thank you for being fair here--and that is that, you know, it's 
important to hear from Mr. Nagle, but, look, there are issues 
of fatigue here that we can't gloss over. That's my point.
    You know, I didn't rip you apart----
    Mr. Nagle. Right.
    Mr. Kucinich. --for this record. You know, we can do 
dramatics here, but I'm not interested in that. I just want to 
point out that this issue is a legitimate issue of driver 
fatigue.
    Thank you, Mr. Chairman.
    Mr. Jordan. Thank you.
    Real quickly before yielding to the chairman of the full 
committee, Mr. Keysaw, do you want fatigued and unsafe drivers 
on the road representing the companies you represent?
    Mr. Keysaw. No, definitely not.
    Mr. Jordan. Mr. MacKie, do you?
    Mr. MacKie. Absolutely not.
    Mr. Jordan. Mr. Miller, do you?
    Mr. Miller. Absolutely not.
    Mr. Jordan. No, because, I mean, it's in your best interest 
for the wellbeing, for the profitability of your company. In 
fact, I would assume many of the trucks that are on the road 
for you guys and Mr. Nagle as well, you probably have the sign 
I've seen, if you don't like my driving, call a number. Do you 
have some of those signs on your truck, Mr. MacKie?
    Mr. MacKie. Absolutely.
    Mr. Jordan. Mr. Keysaw?
    Mr. Keysaw. Yes.
    Mr. Jordan. Mr. Miller, do you?
    Mr. Miller. We don't, but we are in the process of 
implementing electronic----
    Mr. Jordan. And I assume that the reason, Mr. MacKie, that 
you have those on the back of your truck is because--did you 
probably get some benefit from insurance-wise, insurance 
payments? Or you just want the public to know that if your 
company's name is on the trailer of that truck that you got 
safe drivers there. So there's market forces involved in a safe 
record, as well, right?
    Mr. MacKie. No, there's clearly an economic benefit. But, 
clearly, these drivers, and particularly in our industry, I 
mean, they're 
20-25-year employees, so there's a family connection there, as 
well. I mean, you don't want these people to get hurt any more 
than anybody else does.
    Mr. Jordan. Yeah. And Mr. Nagle understands the concern 
because when he had drivers who weren't following the rules, he 
got rid of them. Because he understands that's in the best 
interest of the safety, but also in the best interest of his 
company.
    Correct, Mr. Nagle?
    Mr. Nagle. That would be correct.
    Mr. Jordan. All right. Thank you.
    I would yield now to the chairman of the full committee.
    Mr. Issa. Thank you, Mr. Chairman.
    And I want to thank all the members of the subcommittee 
senior to me for yielding. I appreciate the indulgence.
    I'll go to the same four folks. With all due respect to the 
last two witnesses, I really think this is about people who 
actually operate trucking fleets here today and what is the 
practical implication. I know the numbers are not supported 
based on past arithmetic. I know that the numbers are supported 
slightly based on current arithmetic. But let's go through some 
of the arithmetic and how it impacts you.
    Mr. Nagle, I'll start with you, since your record was 
called into question. Hopefully those signs on your trucks say, 
``And please don't call while driving,'' because you're going 
to be distracted as a car driver following that truck. The 
number-one issue of the Department of Transportation's overall 
Cabinet officer, Ray LaHood, is, in fact, distracted driving.
    Isn't that as much a part of the problem, that accidents 
and problems and even tickets that your drivers receive have a 
lot to do with their lack of focus, not necessarily how long 
they've been up, but a lack of focus? Isn't that one of the 
major points that you look for in your drivers?
    Mr. Nagle. One of the things that we have found out is, 
typically, it's not because of a distraction. When they're 
stopped, again, it's because of, you know, increased 
enforcement. They'll use another reason to check a driver's 
logs for stopping. It could be a marker light that's out; the 
driver could be going three miles an hour over the speed limit. 
So the fatigue factor or logbook factors have not been the 
reasons for their stops; it's been for something else.
    Mr. Issa. Well, Mr. Keysaw--and I have had the opportunity 
of driving large rigs in my quite distant past, including more 
buses than trucks, but my father had a trucking company, 
trucking repair company primarily. The one thing I find 
interesting about particularly large-rig drivers is that their 
ability to be employed depends on their record. No question at 
all, you lose a record, you lose your employability.
    But here's the other thing that I always question. In your 
experience, the four of you, as operators or overseers of 
operations, is there anything in these new regulations that is 
going to ensure 8 hours of restful sleep? Anything?
    Now, are you all familiar with the crash in Buffalo in 
which two pilots were so tired from having flown across country 
and then gotten on a plane and being up for endless hours even 
though their actual duty day was only a couple of hours, when 
they looked at the ice building up on the wings and apparently 
were so tired that they couldn't figure out that they were 
going to crash? Now, FAA has regulations about sleep. There 
actually are regulations. They've tried to create regulations 
about duty day. But they have the same problem that you have.
    Nothing in this regulation--and I saw all positive heads 
nodding--nothing in this regulation is going to guarantee that 
the driver goes to bed and stays in beds and sleeps well for 8 
hours. If we are not actually guaranteeing rest--the last two 
witnesses that talked about these studies and what they showed, 
that doesn't mean a darn thing. If you've got sleep apnea, you 
could be off the road for 54 hours and come back just as 
incapable of being a good driver.
    Now, for the four that have operated, how many of you have 
fired people for drinking within the window of their driving, 
either just before, during, or after? All of you? You've all 
fired people for drinking. Same question: Is anything in this 
regulation going to know that when they leave work for the 
prescribed period of time that they're not just going to the 
bar?
    So you can come back tired, with a hangover, having 
actually driven for maybe 6 or 8 or 10 hours to go see mom in 
upstate Michigan from Toledo, and you come back and you've met 
all the requirements of this new regulation, but, in fact, 
you're not fit for the next 10 or 11 hours. Isn't that true?
    Mr. Kucinich. Would the gentleman yield?
    Mr. Issa. Not yet.
    Is there anyone that knows of anything in this regulation 
that's going to ensure that you actually have rested drivers 
versus ensure that you have drivers that are simply available 
for duty about 10 percent less time?
    I would yield to the gentleman from Ohio.
    Mr. Kucinich. I want to thank----
    Mr. Issa. Cleveland, not Toledo, but, you know.
    Mr. Kucinich. I want to thank my friend for doing that.
    You know, we're not really here to talk about whether 
drivers go to bars or owners, you know, drink at home, okay? 
That's not the point. You know, the bottom line here is, who's 
running the business? It is not the drivers who are running the 
business.
    You are a businessman, and I respect that about you. I 
mean, you bring a dimension to this Congress because you 
understand business. My dad was a truck driver. You know, he 
wasn't calling the shots on how many hours he worked. He had a 
contract; that had something to do with it. But--
    Mr. Issa. Well, reclaiming my time, are any of you aware of 
a study that shows that the duty day in the 11th hour for a 
well-rested--or the 10th hour, actually, going into the 11th 
cutoff--that during that time there is a significant 
diminishment of capability?
    In other words, for any of you--and, Dr. David, I actually 
would go to you; you've looked at these studies. These studies 
are about how long you sleep. If you were to, from the economic 
material you reviewed, if you were to view the risk of the 11th 
hour, assuming that you got a good night's sleep, that you're 
well rested, competent, not distracted, and sober, and having 
been sober, let's say, for the previous 24 hours, was there 
anything that would tell what the actual risk of the 11th hour 
was? And if so, was it scored?
    Dr. David. I think the studies show that the risk of a 
fatigue-related accident does increase. I think the issue is, 
how many of these are there and how many would be reduced by 
this regulation.
    Mr. Issa. Exactly. If you were to score just the 11th hour, 
if you will, or the difference between 10 and 11, if you were 
to score that, what would the accident ratio and/or cost be in 
isolation? Because, as I see it, in the study that supports 
this regulation, you have to throw in the cart, the horse, the 
buggy, the whip, and everything to get slightly into a positive 
ratio of a cost-benefit. Isn't that true?
    Dr. David. I found that the ratio was negative, using the 
best available and most current available data. And I note that 
the only way you can get to that negative is by including the 
issues related to driver health, not just the crash issue. If 
you just looked at the number of crashes, I think FMCSA would 
agree, under their own analysis, the answer was in the negative 
territory.
    Mr. Issa. Last question----
    Mr. Jasny. Mr. Issa?
    Mr. Issa. --very quickly.
    Mr. Jasny. Mr. Issa?
    Mr. Issa. Isn't it true that more crashes occur in the 
first part of a shift than the last part, that drivers actually 
have a poorer record in their first 4 or 5 hours than they do 
in their last 4 or 5 hours.
    Mr. Nagle, since you've been picked on, when do these 
crashes occur?
    Mr. Nagle. Typically, in the first 4 hours of their on-duty 
status.
    Mr. Issa. So, real world, dirty fingernails, you do the 
job, you look at these people. The fact is you're more 
concerned about them going out not rested in those first 4 
hours than the last hour, based on real-world experience. Thank 
you.
    Thank you, Mr. Chairman, for yielding.
    Mr. Jordan. I thank the chairman.
    I yield now to the gentleman from Iowa.
    Mr. Jasny. Mr. Chairman? I have a response, quickly.
    Mr. Jordan. Go right ahead.
    Mr. Jasny. For one thing, crashes in the 11th hour, while 
they are not as numerous as in the earlier hours--that's only 
because most drivers are driving the first 8 hours; not all 
drivers are driving the 11th hour--but the risk, the rate of 
crash, is much higher in the 11th hour. And that's been shown, 
in the earlier hours, that statistically----
    Mr. Issa. Will you make that available, the studies, for 
the record?
    Mr. Jasny. Absolutely.
    Mr. Kucinich. And, Mr. Chairman, if I may, without 
objection, there's a research report and study showing adverse 
health and safety effects of longer working hours and 
inadequate rest time. Without objection, I would like to submit 
that.
    Mr. Issa. I appreciate that, although I didn't quite hear 
the last part. You said ``and inadequate rest,'' so it's a 
combined study.
    Mr. Kucinich. Of longer working hours and inadequate rest 
time. It shows adverse health and safety effects. This is from 
Advocates for Highway and Auto Safety.
    Mr. Issa. And, Mr. Chairman, although I don't disagree with 
the unanimous consent, I do want it to be noted for the record 
that the combining of long work hours and inadequate rest makes 
a different point than the actual period of time that you work. 
Inadequate rest is something I think we're all, here on the 
dais, wanting to figure out how you would get.
    Mr. Kucinich. Without objection?
    Mr. Jordan. Without objection.
    Mr. Kucinich. Thank you.
    Mr. Jordan. The gentleman from Iowa is recognized.
    Mr. Braley. Let me start by asking the panel, how many of 
you have actually worked as a licensed truck driver in your 
lives? Any of you?
    I have. And I can tell you from personal experience that 
the level of stress on a truck driver goes up in direct 
proportion to what's going on in their workplace environment. 
If you're hauling grain during harvest season in Iowa, you have 
a lot more stress on you than you do if you're hauling it on a 
summer day.
    And one of the concerns I have is that we're really talking 
about two different things here today. The first four witnesses 
on the panel, called by the majority, are making a common 
point, which is that the rules that are being proposed are bad 
for business. You all agree with that point, don't you?
    Okay. Well, in an ideal world, the best rule for business 
would be no hours-of-service limitation, where you were free to 
set your own timeframe.
    And yet you're shaking your head, Mr. Nagle, because you 
know there's a problem with that. Because there are backside 
costs, liability costs, that will come if we don't have some 
reasonable restriction on hours of duty. Is that correct?
    Mr. Nagle. Uh-huh.
    Mr. Braley. So what we're really arguing about is whether 
the rule that's been proposed or the rule that's in place makes 
more sense for the purpose that this agency was set up to 
address. And if you look at that purpose, it is not called the 
Federal Motor Carrier Profit Administration. It's called the 
Federal Motor Carrier Safety Administration. And it's to set up 
the rules of the road that give people a level playing field 
that protect both the interest of the people who want to haul 
commerce across the roads of this country, which I was proud to 
do, and also protect the consumers who use that same highway 
and may not be involved in that system.
    Now, Mr. Miller, you made the point that one of the 
problems facing the industry, which I am acutely aware of, is a 
shortage of qualified, safe drivers. Do you remember saying 
that?
    Mr. Miller. I do.
    Mr. Braley. Now, here's what I don't understand. We're in a 
recession now. There are a lot of people looking for work--9 
percent unemployment in this country. Why is the industry not 
able to find enough qualified, safe drivers if that is the 
case?
    Mr. Miller. Sir, I don't have a good explanation for you. I 
can tell you that we are a premium driving operation. We 
operate a safe, legal fleet. We very rarely bump the 11 hours. 
However, I go through an average of 500 applications to put a 
qualified driver in my truck. And that's my concern, that 
people will be forced to put drivers that are not qualified and 
that are unsafe on the road.
    Mr. Braley. And that is my point. I'm as sympathetic as you 
can believe. One of the problems is that there is a huge 
shortage of qualified drivers. And I think economists would 
tell us that perhaps one of the reasons for that shortage is 
that people looking for work do not find the workplace 
conditions and the pay worth the risk of trying to become 
qualified to drive a truck, which I think is an honorable and 
noble occupation and one I was proud to be part of.
    But if we are looking at one of the reasons that may be 
contributing to that, I would argue it could have something to 
do with the Hours of Service requirement. And one of the things 
we know, Mr. Jasny and Dr. David, is, this isn't unique to the 
trucking industry. We've seen this same issue come up in 
resident physician duty hours, as people have become concerned 
that patient safety is being compromised by forcing resident 
physicians to work long hours without appropriate rest, and 
that compromises their ability to do their job effectively and 
impacts patient safety.
    So, having heard the testimony today, I would like both of 
you to respond to the public safety concern and how that 
relates to the ability to hire qualified, safe drivers.
    Mr. Jasny. Well, Mr. Braley, working conditions are always 
an important issue. Certainly, in shift work, we've seen that 
in studies of shift work all over the world. It's the working 
conditions.
    In these specific areas, if you look at--the economist 
Michael Belzer wrote a book called ``Sweatshops on Wheels.'' 
And he's essentially saying that these are the modern-day 
sweatshops because of those working conditions, having to 
deliver just in time all the time, being under the gun, driving 
longer hours. And for many noncontract and nonunion drivers, 
they're exempt from the Fair Labor Standards Act.
    Mr. Braley. Dr. David?
    Dr. David. I mean, I don't think there's any question that 
reducing the amount of on-duty time would reduce the number of 
accidents. The question is, how much and is it worth it?
    I mean, we have a rule that's more restricted than rules 
used to be. Those rules were more restrictive than the rules 
before that. And before that there weren't any rules. So the 
question is, where do you stop? And cost-benefit is one piece 
of information you can use to get there, as long as it's done 
properly.
    Mr. Braley. And just so that I'm clear on one of the 
principal points of your testimony, your testimony was that 
your economic analysis of the tradeoffs between the current 
rule and the proposed rule is there were actual economic 
benefits to going to the proposed rule?
    Dr. David. Well, there would be reduced crashes, but there 
would be increased costs. So I calculated that, on net, the 
increased costs would outweigh the value of the reduced 
crashes. That is obviously sensitive to the assumptions you use 
and how restrictive the rule is. But under the assumptions the 
FMCSA uses, I calculated that the cost would be higher.
    Mr. Braley. But the point that you also made is that those 
costs include opportunity. In other words, the added cost of 
transportation for these same goods and services could result 
in new jobs becoming available, taking people off of 
unemployment, making the taxpayers of this country pay less of 
that burden, and having those new employees paying into Social 
Security, Medicare, State and Federal taxes, as well.
    Dr. David. I mean, this rule isn't going to be undone when 
we come out of a recession, so I would never recommend 
regulation in order to solve an unemployment problem. But in 
terms of the number of people actually driving trucks, that 
could change.
    Mr. Braley. But the point is that this is an analysis about 
the tradeoffs between safety on the one hand and what's a good 
business requirement on the other hand, and you're always going 
to have some of those tradeoffs.
    Dr. David. That's absolutely true.
    Mr. Jordan. Mr. David, you're not the only one who's 
concluded that there's going to be significant increased costs. 
The Obama administration itself has said there's going to be 
increased costs with this new rule.
    Dr. David. Absolutely. The number----
    Mr. Jordan. One of only a handful of rules that they've 
said is going to cost at least over $1 billion, correct?
    Dr. David. The agency's numbers was about $1 billion in 
increased costs.
    Mr. Jordan. A billion dollars in increased costs at a time 
when we got 9 percent unemployment, correct?
    Dr. David. As I say, it's $1 billion today, and it will 
continue to be $1 billion under their assumptions going 
forward.
    Mr. Jordan. Right. Thank you.
    I turn now to the gentlelady from New York. Oh, I'm sorry, 
that's right, the gentleman from Tennessee is first. I 
apologize.
    Doctor?
    Dr. DesJarlais. Thank you, Mr. Chairman.
    Mr. Nagle, can you tell us about the steps your company 
takes to help ensure driver safety and health?
    Mr. Nagle. I didn't hear the last word.
    Dr. DesJarlais. Can you tell me about the steps your 
company takes to help ensure driver safety and health?
    Mr. Nagle. Well, I don't know about health. I mean, we're 
required to go through regular physicals and so forth.
    But, just our company alone, we do not have the onboard 
electronic recorders. So when our drivers call in every 
morning, they have to advise our operations people how much 
longer they have to drive for the day and when their next 10-
hour break is up for their sleep. So we schedule pickups and 
deliveries around that availability of their time and for their 
sleep.
    Dr. DesJarlais. Okay. Well, let me ask, do you think 
there's a pressing need for this rule, or do you believe the 
current rules allow your drivers to balance safety and driver 
health?
    Mr. Nagle. I think the current rules are a lot better than 
what's being proposed. I would say that if you can add or bring 
back in the split-sleeper-berth provision, that will even add 
additional good rest and solid rest time.
    Dr. DesJarlais. Do you think there's anything else 
motivating DOT to propose these rules besides safety and health 
concerns?
    Mr. Nagle. Well, there's a tremendous influence from union 
LTL drivers that--they're not impacted at all by the 34-hour 
reset provision. And some of those carriers, I would--well, I 
would think they would be more adversely affected by the 11-to-
10-hour change. But they're taking studies based on a small 
percentage of drivers that don't represent the typical motor 
carrier industry and trying to broad-brush some of those 
regulations over them. So there are definitely other interests 
that are being represented in this proposal.
    Dr. DesJarlais. Okay. Thank you.
    Mr. Keysaw, I'll ask you the same question. Do you think 
there's anything else motivating DOT?
    Mr. Keysaw. To tell you the truth, I don't know. I'm not 
aware of anything.
    Dr. DesJarlais. Okay. That's fair.
    Mr. Jasny, do you acknowledge that trucking fatalities and 
injuries have declined since 2004 when the current Hours of 
Service rules have been in effect?
    Mr. Jasny. They have declined--they went up initially the 
first 2 years, in 2004 and 2005, that the rule went into 
effect. They've come down in the last 2 years, but it's been 
shown that it has nothing to do with the Hours of Service rule 
itself per se.
    Dr. DesJarlais. Do you acknowledge that the number of truck 
miles traveled has increased since that time?
    Mr. Jasny. Yes.
    Dr. DesJarlais. Okay. Do you acknowledge that registered 
large trucks have also increased since that time?
    Mr. Jasny. The registered number has gone up, although last 
year and the year before, the number of vehicle miles traveled 
for large trucks, for combination trucks, have gone down. 
Overall, the LTL trucks have made up the difference, so VMT has 
remained about flat. But for the vehicles that bump up against 
the Hours of Service rule most, that VMT has gone down last 
year and the year before.
    Dr. DesJarlais. Okay. Based on these facts, it would appear 
that the 2008 Hours of Service regulations have been and 
continue to be very effective in improving highway safety. Is 
it your essential argument that you can never have too much 
regulation?
    Mr. Jasny. No, not at all. You need the right regulations. 
And what we have now is not the right regulations, for the 
reasons I've stated in the record. They are contradictory of 
the scientific evidence in the record. They were disputed by 
the court of appeals as being illogical and of questionable 
validity.
    And I would like to point out that, in 2000, there was a 
notice of proposed rulemaking that actually would have applied 
different Hours of Service regimes to different parts of the 
industry, and Congress told the agency that they couldn't do 
that.
    Dr. DesJarlais. Okay. Do you believe that the regulation 
should have to at least contribute more benefit to society than 
it costs society?
    Mr. Jasny. I believe that it's clear from the regulatory 
analysis that these do.
    Mr. DesJarlais. Okay. Driver fatigue can be a cause or 
factor in any accident, do you agree----
    Mr. Jasny. Yes.
    Dr. DesJarlais. --whether it's passenger vehicle----
    Mr. Jasny. Most crashes are multifactorial incidents.
    Dr. DesJarlais. Okay. Are you aware that, according to 
DOT's own data, that driver fatigue does not rank among the 
most common factors for truck-driver-related fatalities?
    Mr. Jasny. Yes, but they also underestimate the percentage 
of crashes that involve fatigue.
    Dr. DesJarlais. Okay. Are you aware that the percentage of 
fatalities due to passenger-vehicle driver fatigue is higher 
than to truck driver fatigue?
    Mr. Jasny. I don't know that statistic.
    Dr. DesJarlais. Okay. Well, I guess in light of the fact 
that there's more fatigue-related accidents and deaths with 
passenger cars, do you think that there should be drive time 
restrictions on passenger vehicles?
    Mr. Jasny. It's a different operating environment, and most 
passenger vehicles are regulated by States, they're not 
regulated by--they're not a regulated industry. So it would be 
difficult to do, and it's up to States to do that.
    Dr. DesJarlais. Okay. Well, I think the point is we all 
want to drive on safer highways, whether it's trucks, cars. And 
the point is, where do we find a balance in regulation. So 
that's why we're all here.
    But I'm out of time. Thank you.
    Mr. Jasny. Right. But going back to the 2003 final rule, 
that, from its conception, was wrong. And we're trying to 
correct that, and we've been trying to correct that for the 
last 8 years and save some lives.
    Dr. DesJarlais. Okay. Well, for the record, the truck 
percentage is 1.4 and passengers is 1.7.
    I yield back.
    Ms. Buerkle. [presiding.] I now yield myself 5 minutes.
    I would like to submit for the record a statement from the 
Retail Industry Leaders Association and Kraft Foods, both who 
express respect for DOT's intent to prevent crashes but feel 
the proposed rule falls short of accomplishing the goal, 
without objection.
    [The statement from the Retail Industry Leaders Association 
and Kraft Foods follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Buerkle. First of all, Mr. Slattery and Mrs. Wood have 
left the room, and the chairman had expressed our sympathies 
for their losses. But I think, as I sit here, there's not a 
person in this room, whether you're a Republican or a Democrat, 
we're Americans and we want our highways safe. And to think 
that we don't is really disingenuous. So I think we start with 
that premise. We all have family members out there, and we want 
them to be safe.
    But every time a rule or a regulation is passed, or a 
statute, there's a loss of freedom. So, in my mind, when we do 
that, we need to justify it. So as I look at these regulations 
and I see that the statistics have improved with the current 
regulations that are in place, I say to myself, why are we 
taking these steps, what is it that's motivating this, when the 
statistics--and we all agree--and so much of this job is 
balance, balancing safety, balancing our economy and trying to 
get our economy back on track and be prosperous.
    So when I look at the numbers and the statistics--in 1979, 
there were 7,054 fatalities; in 2009, there were 3,619 
fatalities--almost a 50 percent decrease. In 1979, there were 
0.461 fatalities per 100 million miles; in 2009, there were 
0.123--a decrease of almost 75 percent.
    So it appears to me that the current regulations are moving 
in the right direction. They're making the highways more safer, 
they're becoming safer, the fatalities are down. And, in the 
meantime, we're not disadvantaging or creating more 
obstructions and more regulations for our industry.
    So my first question, Mr. Jasny, is why? Why do we want to 
change something that appears to be working? The statistics 
toward more safe highways is working.
    Mr. Jasny. Because just as if the Dow Jones goes up on any 
particular day, individual stocks may be going the other way. 
In this case, while there are a lot of regulations that we've 
supported and the agency has finally come to adopt in recent 
years that are improving safety and helping, this one is 
swimming upstream, this one is going against the current.
    This one is not proved to help with fatigue. The statistics 
and even the agencies say in the notice of proposed rulemaking 
that there is no connection between the recent downturn, which 
is probably--if you look in my Appendix C, the chart that I 
included from the Motor Carrier Safety Administration, shows 
that crashes are not result of fatigue but more what are the 
economic conditions and the downturn in long-haul vehicle miles 
traveled.
    So there's still somewhere between 500 and 1,000 people out 
there who are dying in crashes involving trucks, and most of 
the victims in those crashes, 97 percent, are passenger car 
victims, people in passenger cars who die, not necessarily the 
truck drivers. And so there are still about 1,000 lives out 
there, we think, that can be saved by a better rule.
    Ms. Buerkle. Dr. David, would you like to respond to that?
    Dr. David. Well, I addressed this to a question Mr. Braley 
brought up earlier, which is that, clearly, restricting hours 
can have some effect on fatalities and on large-truck crashes 
generally. The question is, at what point do you stop? And 
that's a judgment that has to be made based on the data.
    And, you know, I mean, there's no question that there could 
be some improvement. The question is whether it's a large 
improvement or a small one.
    Ms. Buerkle. I'm a freshman here, and two things that 
constantly impress me down here is, number one, the disconnect 
between Washington and, in particular in this committee, 
businesses. And so, when we look at these proposed rules, I'm 
always concerned that the stakeholders aren't at the table, 
that the bureaucracies and the agencies are making these rules 
that affect the businesses.
    Did any of you participate in or offer up any or have any 
input into these proposed rules, of the first four?
    Dr. David, when Mr. Jasny talked about the court of appeals 
striking down the last regulation, I would like for you to just 
comment on that.
    Dr. David. I'm sorry, I don't have any opinion about that.
    Ms. Buerkle. My understanding is--Mr. Jasny, do you know 
why they struck down that regulation?
    Mr. Jasny. Yes. The initial decision struck it down because 
they did not consider the health of the drivers when imposing a 
rule that would affect drivers. And that was----
    Ms. Buerkle. So it was procedural rather than substantive.
    Mr. Jasny. No. That was substantive because there was a 
statutory mandate to consider that issue and the agency did not 
consider the issue.
    The court then went on, in an unusual dicta, to point out 
all the problems that involve the substantive issues regarding 
safety, regarding the 11 hours, regarding the 34 hours, that 
the court saw as problems when the case came back.
    Ms. Buerkle. I don't mean to cut you off, but my time is 
running out here, and I do want to ask Dr. David one more 
question.
    Dr. David, you mentioned in your testimony that there were 
several errors in DOT's methodology. Can you just expound on 
that for us a little bit?
    Dr. David. Well, there were a number of cases where 
assumptions were made without any kind of basis. There were, 
for example, calculation errors where something as simple as 
rounding a number for no reason can mean a difference of $100 
million in the regulation.
    There were several other cases which I outlined in my 
report. They total up to being worth several hundred million 
dollars per year, which could make the difference between a 
positive benefit and a negative benefit for this rule.
    Ms. Buerkle. On a scale of 1 to 10, how do you think DOT's 
cost-benefit analysis rates in terms of accuracy?
    Dr. David. I'm sorry, I've not been called upon to do that 
before. I describe what I find as either mistakes or 
assumptions that are made that don't seem appropriate given 
current data, and I think you would have to make your own 
judgment about how it grades relative to the other ones.
    Mr. Jasny. If I may, I would like to submit for the record 
a rebuttal that my organization has drafted with regard to the 
Edgeworth analysis that points out the flaws in their 
reasoning.
    Ms. Buerkle. Without objection.
    Mr. Jasny. Thank you.
    [The rebuttal follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Buerkle. I am out of time. I now yield to Mr. Labrador.
    Mr. Labrador. Thank you, Madam Chair.
    Mr. Nagle, there was some discussion just a few minutes ago 
with the good gentleman from Ohio, who I respect very highly, 
about your safety record. And it always amazes me--I'm also a 
freshman here, and I sit here and we talk about new regulations 
and we talk about the cost of new regulations, and it always 
amazes me that there's always testimony that, under existing 
regulations, we're catching people who are making mistakes and 
we're--as you indicated, you fired a bunch of people who made 
those mistakes, and yet we have this administration wanting 
more and more regulation, when it seems like the regulations 
that are already in place are doing their job.
    Would you comment on that a little bit? It seems like you 
didn't need new regulation to--number one, the people who were 
penalized were penalized under existing regulation, and you, as 
a businessman, didn't need new regulation to tell you that you 
needed to get rid of those people. Can you comment on that a 
little bit, if I'm making any sense at all?
    Mr. Nagle. You are. The regulations as they currently 
exist, okay, what had happened is, through CSA enforcement, the 
driver's background became much more important and much more 
public. And so we have to take that into consideration. So, at 
that time, now we place greater emphasis on internal audits and 
internal logs. And that's where we found a lot of these 
occurrences, and that's why we got rid of those.
    But in terms of would we have taken those steps knowing 
that this proposed regulation were in the forefront, we would 
have taken those steps regardless. So I really think that just 
adding additional regulations, additional regulations, when 
less than 2 percent of the trucking companies have actually 
been audited and checked--okay? We're doing a poor job 
enforcing the current regulations on the other 98 percent of 
the carriers----
    Mr. Labrador. Okay, can you stop right there? That's what 
frustrates me the most, is we have regulators who are not doing 
their job, we do a poor job with the current regulations, and 
we think that the solution is to add more regulations instead 
of just doing our damn job, instead of just doing the things 
that we should be doing right now. We do it in the trucking 
industry, we do it in every single industry.
    And what we have is an administration that thinks by adding 
more and more regulations we're going to have more safety, when 
if they just did their job, they just actually enforced the 
regulations that are already in place, we would have the safety 
that we need.
    What do you think about that, Mr. MacKie?
    Mr. MacKie. Well, I would just reiterate the point that 
several of us made, is we've been down this road four times in 
the last 12 years. And it's not an issue of not enough 
regulation. It's hard for companies. Again, particularly in our 
industry--we're bakers first, not, you know, trucking 
companies--we want to know what the rules are and that work for 
us. And instead of changing the rules, moving the goalpost back 
and forth that we've had in the last 12 years, some certainty 
there would be enormously helpful.
    And right now these regulations seem to be working, so why 
don't we stick with them for a while?
    Mr. Labrador. Exactly. And it seems like they're working. 
We're catching the offenders, we're catching the people that 
are not doing the right job. And, instead, what we have is a 
bunch of eggheads telling us that if we do some stupid formula 
that we're going to have a little bit more safety, when--I 
believe you have your name--do all of you have your names on 
your trucks? It's your reputation that is on the line if 
there's no safety, right?
    So what are the market forces that help you to make these 
decisions--not regulatory forces, but market forces? What do 
you do, Mr Keysaw? You have your name on your truck.
    Mr. Keysaw. Yeah, we do.
    Mr. Labrador. So what do you think about every morning, not 
the formulas that the eggheads are going to give us, but what 
do you think about every morning when you think about truck 
safety?
    Mr. Keysaw. Well, because we have our name on our trucks, 
we think about, you know, what reputation we have out there to 
the grocery industry and, you know, our customers that go into 
our stores that have the same name on it. So we know we're very 
visible out there, and we want the safest fleet.
    Associated Foods has gone to the extent of putting 
electronic recorders in their tractors more than a decade ago 
so that we could have the safest fleet out there. We also take 
quality of life for the drivers very seriously, because we know 
they're the ones, at the end of the day, that will make sure 
our roads are safe.
    Mr. Labrador. Now, do all of you--I heard, I think it was 
Mr. Miller who said that you are having a hard time finding 
employees. Is that correct?
    Mr. Miller. Qualified, safe drivers. That is correct.
    Mr. Labrador. Are all of you having that problem? Every 
single one of you.
    So who is going to take the additional 40,000 jobs that 
apparently are going to be created by this regulation if you 
can't even find enough qualified workers under the existing 
law? I'm sorry, that's just a rhetorical question.
    But, again, eggheads are running this country instead of 
actual, real people who understand what's happening here in 
America and how jobs are created and how jobs are destroyed.
    Thank you.
    Mr. Miller. May I interject a comment?
    Mr. Jordan. [Presiding.] Certainly.
    Mr. Labrador. Yes.
    Mr. Miller. One of the concerns that I have in all of the 
reporting, when we see fatigue-related accidents, there is no 
correlation that at least I have seen as to whether that is a 
compliance-related accident. In other words, okay, the driver 
was fatigued, but was he fatigued because he was not following 
the existing laws and violating those laws?
    The second is the topic of sleep apnea. We're just 
beginning to explore that topic. As well as CSA 2010; we 
haven't even begun to see the benefits of that, which is only a 
year into fruition, which is probably the most sweeping, 
comprehensive method that the FMCSA has taken in looking at 
carriers, as well as providing us a tool to manage our carriers 
and our fleets better in the data that it provides to us.
    Mr. Jordan. Thank you.
    Mr. Labrador. Mr. Chairman, I yield back.
    Mr. Jordan. Thank you. I thank the gentleman from Idaho for 
his good questions.
    I want to thank our first panel for your great testimony 
and your willingness to answer the questions and be with us 
today. We're going to dismiss you now, and we'll get to our 
second panel. So thank you all again. 
    [Recess.]
    Mr. Jordan. Ms. Ferro, it's good to have you with us. And 
we have to do the swearing-in bit again. So I apologize; you 
just got seated. If you're ready, stand and raise your right 
hand and we'll get started.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Ms. Ferro. I do.
    Mr. Jordan. Thank you.
    And let the record show that the Administrator answered in 
the affirmative.
    Okay. Thank you for being with us. I know you have a busy 
schedule, as well, and we appreciate your time here. And it may 
just be you and me, so this will be brief probably. But you've 
got your 5 minutes. If you need a little more time, go right 
ahead.

STATEMENT OF THE HON. ANNE S. FERRO, ADMINISTRATOR, DEPARTMENT 
     OF TRANSPORTATION MOTOR CARRIER SAFETY ADMINISTRATION

    Ms. Ferro. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here today and discuss the FMCSA's efforts to 
reduce fatigue-related crashes involving trucks through the 
enhancements of the Federal Hours of Service rule.
    The FMCSA is an agency of 1,000 employees overseeing an 
industry of more than 500,000 carriers and millions of drivers. 
With a workforce 80 percent of which is across the country in 
the field, we are dedicated to our congressionally mandated 
mission to save lives by reducing crashes involving large 
trucks. We achieve this mission through a mix of enforcement 
strategies, rules, and tools designed to target our efforts on 
noncompliant carriers and drivers.
    We also use research and data analysis to improve overall 
industry safety. And our research shows that fatigue remains a 
significant factor in truck-related crashes. Many commercial 
drivers are still not getting enough rest and breaks under the 
current rule. Last year, 2010, nearly 4,000 people died in 
crashes involving large trucks. By the Department's estimates, 
approximately 500 of those would have been related to a 
fatigued driver.
    Each and every life is precious, and while it's hard to 
place a monetary value on human life or a family suddenly left 
without a mother, a father, a child, a friend, a sibling, or a 
colleague, we can estimate the economic cost of commercial 
motor vehicle crashes. Costs include property damage, cargo 
damage, bridge and road damage, vehicle damage, lost wages, 
lost productivity, workers' comp costs, medical insurance, 
health costs, and the list goes on and on.
    These costs do not discriminate between safety advocate and 
small-business owner. They impact everybody. In fact, a company 
with a 2 percent profit margin would have to earn an additional 
gross revenue rate of $1.25 million to overcome the costs--
unexpected, unscheduled costs--of a crash that would cost them 
up to $25,000 in costs not covered through insurance. Those are 
the costs of recovery for a business owner. There is no 
recovery capacity for a parent to overcome the loss of a child.
    The purpose of the proposed Hours of Service rule is to 
reduce driver fatigue and, thus, reduce fatigue-related crashes 
involving commercial vehicles. In developing this NPRM, FMCSA 
provided an unprecedented level of transparency and input from 
all sectors--safety advocates, small-business owners, drivers, 
shippers, the public at large, large trucking companies, you 
name it.
    We began by seeking input from our Motor Carrier Safety 
Advisory Committee, a body that was structured under SAFETEA-LU 
that is made up of representation from law enforcement, from 
the shipping and trucking industries, from insurance, safety 
advocacy community, and labor. Using the input from the 
advisory committee, we set about holding five listening 
sessions across the country--this is before developing the 
rule--in order to gain as much input as we could in building 
the rule itself, the proposed rule.
    So the NPRM that followed relied upon the input we 
received, an extensive review of fatigue-related scientific 
literature, crash data, driver health and mortality 
information, and thorough economic analyses. The NPRM was 
developed using the principles of President Obama's Executive 
order, which calls for us to use quantitative and qualitative 
cost-benefit data, public participation, user participation, 
and a strong exchange of ideas.
    Because we're still in the NPRM stage, I'm somewhat limited 
in how detailed I can respond to some of the questions that may 
be asked, but please rest assured that the final rule will be 
based on careful consideration of all the input we received, 
the additional data that were submitted to the docket. The 
draft final rule is currently under review at the OMB.
    So, again, I just want to reinforce that I speak for all of 
the FMCSA employees across the country to say we are 
passionately committed to our congressionally mandated mission 
to reduce crashes involving trucks and buses. Together with our 
State enforcement partners across the country, we work every 
day, 24/7, to fulfill this mission, fulfill the public's 
expectation for safety and safe travel. Our citizens deserve no 
less.
    So, with that, Mr. Chairman, I will be pleased to answer 
any questions you may have.
    [Prepared statement of Ms. Ferro follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. And I'll be brief, as well.
    You said there were 4,000 fatalities in the last year--last 
year you had records of--because of truck accidents? Four 
thousand, was that the number you gave?
    Ms. Ferro. For 2010, our estimates--we continue--we collect 
crash data directly from our State law enforcement partners as 
part of our Motor Carrier Safety Assistance Program. And 
through that data, preliminarily, we're showing an uptick in 
2010.
    Again, crash rates still remain at historic lows, which is 
a tremendous outcome----
    Mr. Jordan. Okay.
    Ms. Ferro. --not even close to being low enough, but that's 
what we're showing preliminarily for----
    Mr. Jordan. So crash rates are at historic lows. And you 
said 4,000 for 2010. What----
    Ms. Ferro. I said upwards of.
    Mr. Jordan. What was it in 2009? What was it in 1995? Give 
me some comparison.
    Ms. Ferro. So, in 2009, I want to say 3,360, roughly, in 
truck-involved fatalities.
    Mr. Jordan. Okay. That's a definite number? That's not some 
estimate, it's a definite number?
    Ms. Ferro. That's our absolute number.
    Mr. Jordan. And then, for 2010, you said it is 
approximately 4,000, or is there a definite number?
    Ms. Ferro. No, that's not a definite number. That is an 
estimate. And I said it is approaching 4,000.
    Mr. Jordan. Okay. So 3,300, the number you gave for 2009, 
is a definite number. What was the definite number 10 years 
ago, 12 years ago, 15 years ago?
    Ms. Ferro. It was closer in the high 4,000 range. I don't 
have that specific number, but I will certainly provide it to 
the committee.
    Mr. Jordan. Okay. But the trend has been down, or is it 
pretty level or----
    Ms. Ferro. The trend--and I think you heard some of the 
prior witnesses indicate, there's been roughly a 30 percent 
decline in truck-related fatalities. We're still upwards of 
75,000 injury-related crashes.
    Mr. Jordan. And what's that number like? Is that number the 
same?
    Ms. Ferro. That also has declined, yes, which is very 
positive.
    Mr. Jordan. And then you mentioned the 500 related to 
fatigue.
    Ms. Ferro. Yes.
    Mr. Jordan. And how did you determine that?
    Ms. Ferro. That's based on our estimates of fatigue-related 
crashes--which we feel, by the way, are an underestimate--
derived from our Large Truck Crash Causation Study, which shows 
approximately 13 percent of fatal truck crashes attributed to 
fatigue.
    Mr. Jordan. Okay. And, under the new rule, what does your 
modeling suggest will be the overall fatality number and the 
number attributable to fatigue?
    Ms. Ferro. So, under this rule--certainly, I heard a lot of 
talk from the prior witnesses. We've got costs, we've got 
benefits. Without the rule, we've got costs today that we 
estimate approach $1.4 billion in costs to society as a whole 
in crashes and driver mortality, as in health.
    What we propose under this rule--and, again, there were two 
options in the rule we proposed. We identified benefits that 
include a reduction in deaths directly under the 10-hour option 
of approximately 49. And under the 11-hour option, I want to 
say it was about 28. And those are deaths specifically 
attributed to fatigue-related driving, not all crashes and 
deaths related to truck crashes.
    Mr. Jordan. So what you're saying is you go from 500 to--
what number next year?
    Ms. Ferro. Well, again, you're presuming next year the rule 
is in effect. We are still in a proposed rulemaking stage. So 
in the year in which----
    Mr. Jordan. Well, whatever year, whatever year it goes into 
effect.
    Ms. Ferro. Let's, you know, fast forward to a year when the 
rule is fully in play--and this is a proposed rule. Under the 
option where we proposed 10 hours of driving time, which was 
the agency's preferred option, we would see a reduction, an 
estimated reduction, in deaths of approximately 49, and under 
the 11-hour option of 26.
    Mr. Jordan. And what was the other number that you--what 
does your projection suggest on the 3,300 fatality number, 
overall number?
    Ms. Ferro. I don't have that.
    Mr. Jordan. Okay.
    Ms. Ferro. I don't have that, but we will certainly follow 
up if we can project that.
    Mr. Jordan. Okay.
    Well, I want to thank you for coming today. We had, I 
think, a good discussion with our first panel. And because we 
have no other Members here--and I apologize, it's the nature 
of, as you know, Congress' schedule that we didn't have more of 
our Members able to ask you questions. But thank you for 
coming.
    Ms. Ferro. Well, if I might, just in closing real quickly, 
reinforce again, the purpose of this rule is to reduce fatigue-
related crashes involving trucks by reducing and setting 
improved rest breaks and improved likelihood of rest for 
professional commercial drivers.
    It is our obligation as a Federal agency to strive toward 
the safest operating environment possible for commercial 
vehicles and protect the public. And we feel strongly that the 
proposed rule heads us in that direction.
    Mr. Jordan. Thank you.
    Ms. Ferro. Thanks, Mr. Chairman.
    Mr. Jordan. You bet. Thank you.
    And we're adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
</pre></body></html>
